           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
        STATE OF MINNESOTA
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 2000


  February 2002     A-77-02-00009




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                           (j~" SECu
                                                                  ~
                                                           ~
                                                           ~    IIIIIII~~
                                                               ~ISi\'.t"
                                            SOCIAL             SECURITY
                                                     --.
                                            Office of the Inspector              General
MEMORANDUM
~ate,- FEB 2 7 2002                                                         ..
                                                                                           Refer To:

To:     EI}en Baese
        Director
        Management Analysis and Audit Program Support Staff

From:   Assistant I nspector      General
         for Audit

Subject:
      Single Audit of the State of Minnesota for the Fiscal Year Ended June 30, 2000
        (A- 77 -02-00009)

        This report presents the Social Security Administration's (SSA) portion of the single
        audit of the State of Minnesota for the Fiscal Year ended June 30, 2000. The
        Minnesota Legislative Auditor performed the audit. Results of the desk review
        conducted by the Department of Health and Human Services (HHS) have not been
        received. We will notify you when the results are received if HHS determines the audit
        did not meet Federal requirements.

        The Minnesota Disability Determination Services (DDS) performs disability
        determinations under SSA's Disability Insurance (Dl) and Supplemental Security
        Income (SSI) programs in accordance with Federal regulations. The DDS is reimbursed
        for 100 percent of allowable costs. The Minnesota Department of Economic Security
        (DES) is the Minnesota DDS's parent agency.1

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. 88A's Dl and
        881 programs are identified by CFDA number 96. 88A is responsible for resolving
        single audit findings reported under this CFDA number.

        The single audit reported the following findings (see Appendix A)

        .    Some DES employees had inappropriate access to mainframe data. The corrective
             action plan indicates that employee access is being reviewed and will be limited to
             employees with legitimate business needs.

         .   DES did not properly maintain its security infrastructure. The corrective action plan
             indicates that a system is now in place to properly maintain DES' databases.




         1 Organizationally,   the DDS is under the Workforce Wage Assistance Branch within the Department of
         Economic Security.
Page 2 -Ellen         Baese


We recommend           that SSA ensure that the DDS:

1 Limits access to mainframe data to only those employees with legitimate business
     needs.

2.   Has   adequate      systems    security   procedures      in place   for safeguarding         claimant

     information.       .-

The single audit also disclosed the following findings that may impact DDS operations,
although they were not specifically identified to SSA. I am bringing these matters to
your attention as they represent potentially serious service delivery and financial control
problems for the Agency (see Appendix B).

.    DES did not have procedures in place to adequately monitor manual checks

.    The Department of Finance did not provide adequate direction to State agencies for
     certain types of financial transactions.

     DES did not conduct independent quality control reviews of system batch jobs.

     Computer controls were not in place at DES concerning employee access, accounts
     and passwords.

     The Department          of Administration    did not have written security infrastructure
     procedures.
Please send copies of the final Audit Clearance Document to Mark Bailey in
Kansas City and Paul Wood in Baltimore. If you have questions' contact Mark Bailey
at (816) 936-5591.


                                                        ;J~                                  '1
                                                      Steven     L. Schaeffer                     f't-
 Attachments
Appendix A
Page 1 of 5
Appendix A
Page 2 of 5
Appendix A
Page 3 of 5
Appendix A
Page 4 of 5
Appendix A
Page 5 of 5
Appendix B
Page 1 of 8
Appendix B
Page 2 of 8
Appendix B
Page 3 of 8
Appendix B
Page 4 of 8
Appendix B
Page 5 of 8
Appendix B
Page 6 of 8
Appendix B
Page 7 of 8
Appendix B
Page 8 of 8
                   Overview of the Office of the Inspector General
                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                                Office of Executive Operations

The Office of Executive Operations (OEO) provides four functions for the Office of the
Inspector General (OIG) – administrative support, strategic planning, quality assurance, and
public affairs. OEO supports the OIG components by providing information resources
management; systems security; and the coordination of budget, procurement,
telecommunications, facilities and equipment, and human resources. In addition, this Office
coordinates and is responsible for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. The quality assurance division performs internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from the Agency.
This division also conducts employee investigations within OIG. The public affairs team
communicates OIG’s planned and current activities and the results to the Commissioner and
Congress, as well as other entities.

                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
